                                        t                                          r                           t

                                                                                                     I
       *PL    Sc,                                 NATIONAL SCIENCE FOUNDATION                        /I
 z<@!
   4
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM
       04 0


 Case Number: I04 120047                                                                      Page 1 of 1



         Two NSF awards' were reviewed as part of a Proactive Review of Participant Support funds.
         Participant support funds are restricted to specific uses and cannot be reallocated without prior
         written approval from NSF.

         Following discussions with NSF and the institution2 on May 27,2005, the institution sent a
         check for $73,509.00. The check represented a final settlement for these two NSF awards. The
         institution also submitted a copy of the institution's new policy regarding the use of participant
         support funds.

         Accordingly, this case is closed.




                                                                                                          11




                                                                                                          !


                                                                                                          'I
                                                                                                           I




          1
          2




NSF OIG Form 2 (1 1/02)
